No. 19-

 

 

IN THE
Supreme Court of the United States

Barry C. GARCIA, PETITIONER,
Vv.

STATE OF NORTH DAKOTA, RESPONDENT.

On Petition For A Writ Of Certiorari To
The Supreme Court of North Dakota

CERTIFICATE OF SERVICE

I, John Mills, being duly admitted to practice
before this Court and serving as counsel of record
in this case, did on this date, July 15, 2019, send
out from Oakland, California one package contain-
ing a copy of the Application for an Extension of
Time in the above entitled case. All parties re-
quired to be served have been served by first class
mail. Packages were plainly addressed to the fol-
lowing:

Birch Burdick

Cass County State’s Attorney
P.O. Box 2806

Fargo, ND 58108
Respectfully submitted,

NAMRATA KOTWANI J R. MILLS
SEYFARTH SHAW LLP Counsel of Record
560 Mission Street GENEVIE GOLD
Suite 3100 PHILLIPS BLACK, INC.
San Francisco, CA 94105 1721 Broadway
Suite 201
Oakland, CA 94612
(888) 532-0897

j.-mills@phillipsblack.org

July 17, 2019
Counsel for Petitioner
